Animal Waste Disposal Issues
                                                  #7100142


Inspector General Division Conducting the Audit:
Special Review Unit

Region(s) covered:
Region 4

Program Office Involved:
Office of Water
Office of Enforcement and Compliance Assurance



                                       TABLE OF CONTENTS
   •   EXECUTIVE SUMMARY
   •   Glossary

CHAPTERS

1. INTRODUCTION

       Objective
       Background
       Scope and Methodology
       Prior Audit Coverage

2. HOG WASTE SPILLS RESULT IN REGULATORY CHANGES IN NORTH CAROLINA

       State "Deemed Permitted" Program
       Changes Occur After The Spills

3. WHAT CAN EPA DO?

       Current Federal Regulations
       Permitting Requirements
       Permitting Enhances Compliance And Enforcement Program
       Pollution Prevention
       Measuring Progress
       Recommendations

APPENDIX

       REPORT DISTRIBUTION


To request a hard copy, please contact EPA, Office of Inspector General, Office of Audit at 202-260-7784
